V- .

u

FILED
JUN 1 0 2021
'FFICE OF THE CLERK
UPREME COURT, U.S.

WRIT OF CERTIORARr
In the Supreme Court of the United
States
James Lawrence
Petitioner Pro Se
v.
Altice USA
Respondent

On Petition for a Writ of Certiorari to
United States Court of Appeals
for the Second Circuit
James Lawrence
1655 Post Rd. East - Unit 804
Westport, Ct. 06880
(475) 298-0681
Sancorgoman@gmail.com

QUESTIONS AND ARGUMENTS ABOUT ALTICE/NEWS 12
CONNECTICUT REPORTING
“Arrested, for Stalking Several Women ’ and “Preying on Women” as NOT being as
Second Circuit Court of Appeals concludes “substantially true”.
NOTE: Color coding used so to be consistent with how written in past Briefs.
QUESTION #1:
Can a media lawfully portray a ONE TIME One Count of Second Degree Breach of
Peace arrest as “ARRESTED FOR STALKING SEVERAL WOMEN” given the fact
that the stalk or harass wording (Course of Conduct Behaviors and actual laws)) are
not part of the Second Degree Breach of Peace Statute?
QUESTION #2:
Can a media lawfully portray a ONE TIME One Count of Second Degree Breach of
Peace arrest as “ARRESTED FOR STALKING SEVERAL WOMEN” given the fact
that the stalk or harass terminology/words are NOT DEPLOYED BY THE ARREST
WARRANT WRITING OFFICER?
QUESTION #3:
Can a media lawfully portray a ONE TIME One Count of Second Degree Breach of
Peace arrest as “ARRESTED FOR STALKING SEVERAL WOMEN” given the fact
that no woman/women was/were ever quoted or willing to give a Sworn Written
Statement let alone deploy the stalk or harass terminology in a complaint?
QUESTION #4:
If a media company are to choose different words (let alone laws) than the Arrest
Warrant, should a media company not be obligated to have names and/or actual
quotes from alleged victim/s when deploying a subjective interpretation of an
Arrest Warrant that never uses the words stalking or harassing?
QUESTION #5:
Why is the Second Circuit Court of Appeal NOT writing “ALLEGED totality of
Lawrence’s conduct” given the fact the reader of the Arrest Warrant KNOWS that
these past alleged one-time acts of as police wrote “get into personal space” are
theories, unproven, and unprovable because there are no arrests (Probable Cause)
tied to these incidents let alone evidence for veritable stalking behavior?
QUESTION #6:
Does the Second Circuit Court accurately define the dictionary definition of
stalking, stealth, and harass?
QUESTION #7:

ii

Can fully KNOWN long past decades old complaints/calls of concerns to police and
resulting warnings devoid of any Probable Cause for any type of arrest (let alone
the extreme arrest of stalking) and devoid of any evidence in the form of Sworn
Written Statements, video coverage, witnesses, any criminal record of such, etc ...
be lumped together as what the Second Circuit Court of Appeals writes “the totality
of Lawrence’s substantially true stalking conduct ” at a public market?
QUESTION #8:
Does the Second Circuit Court of Appeal have the right to even write
u.Lawrence’s documented history of following women in a harassing manner” when
the Arrest Warrant writing officer himself never used the terms harassing or
stalking (both Course of Conduct behaviors) and within Arrest Warrant writing
officer’s Sworn Deposition Arrest Warrant officer quoted that he never thought of
using these words stalk or harass and opted for <(get into personal space”— an actual
dictionary phrase that NEVER itself has the words harass let alone stalk within its
definition?
QUESTION #9:
Is it right for me James Lawrence to NOW TO BE FOREVER PORTRAYED AS A
“STALKER” devoid of any arrest or conviction let alone any person/woman accusing
me of this behavior?
QUESTION #10:
Is it right for me James Lawrence to NOW TO BE FOREVER PORTRAYED AS A
“STALKER” without any evidence in the form of stalking language within the one
count of Second Degree Breach of Peace Arrest Warrant?
QUESTION #11:
Is it right for me James Lawrence to NOW TO BE FOREVER PORTRAYED AS A
“STALKER” without any evidence in the form of stalking language within any past
police Incident Report devoid of arrest?
QUESTION #12:
Given that other media picked up on this extremely false interpretation of the
Arrest Warrant, to which I now have a second federal lawsuit - James Lawrence v.
Hearst Communications, is not the Supreme Court a necessary forum to provide
conclusive detailed opinions based on the evidence submitted so the unproven and
unnrovable let alone non-existent stalking and/or harassing accusations aka unjust
persecution finally end?
QUESTION #13:
Given the evidence presented to the Second Circuit Court of Appeals should not this
case be granted a potential jury trial so to have a middle course in between
resolution that discourages any other media organization in the future to parrot the

iii

unproven and unprovable “stalking” narrative to which Defendant Altice/News 12
caused?
QUESTION #14:
In today’s highly politized culture and gender warring Zeitgeist is not the evasive
Decision from New York’s Second Circuit Court of Appeals not raising highbrows as
to not allowing for a trial and let a diverse body of everyday people to help
define the term stalk and/or harass and how these terms resonate in what
Connecticut District Judge Stefan Underhill phrased the “minds of the average
viewer”?
QUESTION #15:
Can a court equate the behavior of a One Count charge of the statute Second Degree
Breach of Peace with the statute of Third Degree Stalking let alone apply it to past
closed cases devoid of any kind of arrest/statute?
QUESTION #16:
Can a court equate the behavior of a One Count charge of the statute Second Degree
Breach of Peace with any past incident report that involved a full investigation
resulting in no Probable Cause for any kind of arrest cases long closed and never
reopened?
QUESTION #17:
Can the Second Circuit Court of Appeals allow and empower the extreme
characterization of “Arrested for Stalking Several Women” to someone (James
Lawrence) based on a One Count of Second Degree Breach of Peace Arrest Warrant
narrative “follow and get into personal space” that mentions prior KNOWN (by
reporter) unproven and unproveable past long closed cases resulting in no arrest of
any kind (or as the Second Circuit Court of Appeals writes past “totality of
Lawrence’s conduct ”) with statute of limitations in effect?
QUESTION #18:
What is this “totality of Lawrence’s conduct” (should have been written alleged) and
because there are no details is not sticking to the actual wording of the Arrest
Warrant in order?
QUESTION #19:
Since there are no Sworn Written Statements and never prior arrests or evidence
for anything criminal or not, can anyone ever know in a “substantial” way what was
the “totality of Lawrence’s conduct ”?
QUESTION #20:
Can the Second Circuit Court of Appeals allow and empower the extreme
characterization of “Arrested for Stalking Several Women” to someone (James
Lawrence) based on a One Count of Second Degree Breach of Peace Arrest Warrant

iv
narrative “follow and get into personal space” that mentions prior KNOWN
unproven and unproveable past long closed cases resulting in no arrest of any kind
(or as the court writes past “totality of Lawrence’s conduct”) with statute of
limitations in effect all the while the author of the Arrest Warrant states in a Sworn
Deposition that he not only never deployed the words “stalk” or “harass” but
NEVER thought of using this words of “stalk” or “harass”?
QUESTION #21:
Can the Second Circuit Court of Appeals be allowed to conflate the Course of
Conduct terms of stalk and/or harass and Course of Conduct laws of stalking or
harassing with a ONE TIME alleged (never convicted) One Count of Second Degree
Breach of Peace for “following and getting into personal space”.
QUESTION #22:
Can the Second Circuit Court of Appeals be allowed to falsely refer to the
Connecticut Second Degree Breach of Peace Statute in a way that conflates this
Connecticut Second Degree Breach of Peace Statute with Connecticut Third Degree
Stalking Statute all the while ignoring the Sworn Deposition of the arresting officer
that affirmed the one-time arrest for One Count of Second Degree Breach of Peace
was in reference to the #6 part of the statute (“creates a (single) public and
hazardous or physically offensive condition”) and not any other part of the Second
Degree Breach of Peace statute (#1) “engage in threatening manner” to which the
court attempted to associate the one time arrest with while grossly conflating the
statutes of Second Degree Breach of Peace with Third Degree Stalking?
QUESTION #23:
Why does the Second Circuit Court of Appeal when delivering their very
questionable and controversial Decision, reference a lone past actual stalking arrest
from 1996 in California involving my known ex-girlfriend who provided warning
(hence a Restraining Order), a only stalking arrest that itself resulted in no
conviction as Exhibits on my FBI Criminal Background Check prove?
QUESTION #24:
What is the “average reader’s” understanding of the terms “stalk” and/or “harass”
let alone “Arrested for Stalking or Harassing Several Women” ?
QUESTION #25:
If a news organization is to report and reference a past closed case or call of concern
to police that resulted in NO arrest as stalking and/or harassing should there not be
a quote from the police that there was stalking and/or harassing?
QUESTION #26:
Is the news headline “Man Arrested for one count of Second Degree Breach of Peace”
“substantially” different than “Man Arrested for Stalking Several Women”?

V

QUESTION #27:
Are what Connecticut District Judge Stefan Underhill termed “IMPACTS” aka
DAMAGES of the news headline “Man Arrested for one count of Second Degree
Breach of Peace” different than “Man Arrested for Stalking Several Women”?
QUESTION #28:
What are as Connecticut District Judge Stefan Underhill termed the “popular
acceptation” of stalking behavior let alone “popular acceptation” of the “outright
false” news report “Arrested for Stalking Several Women”?
QUESTION #29:
Is a thorough and detailed analysis of the Damages from the “IMPACT” of
Altice/News 12’s “outright false” news reports necessary to measure if News 12
“dulled the impact” (as Judge Stefan Underhill wrote) and necessary to measure
how and how much to “dull the impact" from the various “outright false” news libel
and slander?
QUESTION #30:
What is (as the Arrest Warrant states) “follow” and “get into personal space” (a now
newly coined popular phrase) and how can we define “get into personal space”?
QUESTION #31:
Is the word “follow” different from stalk and is the phrase “get into personal space”
different than “violate personal space”?
QUESTION #32:
Did not the police use this “follow” language so to intentionally avoid using the
more extreme Course of Conduct behavior/language of “stalking and/or harassing”?
QUESTION #33:
Are we living in a very freakishly aggressive and increasingly Guilt by Accusation
culture Zeitgeist that is not affording people proper Due Process of Law let alone
Due Process after Law (respect for already completed legal processes - i.e in the
form of investigations of alleged Incident Reports) and are we prepared to begin to
do something about this ever-growing problem?
QUESTION #34:
Are not alleged past “incidents” that became complaints to police and then are
investigated resulting in no arrest more conclusive than the current Zeitgeist of
women being allowed to come forward and point the finger in the media devoid of
any kind of police investigation?
QUESTION #35:
Can a news organization while reading the Arrest Warrant narrative of past
unproven and unprovable past “follow and get into personal space” report on

vi
someone’s one time arrest for One Count of Second Degree Breach of Peace as
“Arrested for Stalking Several Women” all the while having no women (named or
not) quoted from the past and also having the only woman who is quoted in their
reports never having an Individual Police Report and this lone woman quoted never
deploying the words stalk and/or harass?
QUESTION #36:
Are we as a nation prepared to continue to allow a woman/women to use the media
to push her/their unproven often under-informed, emotional, mysterious agendadriven accusations (i.e. dirty politics) devoid of proper police investigations and
obvious persecutions accusing men of non-criminal behavior in ways that not only
insinuate some kind of criminality but slanderously results in reports of criminality
that jumps multiple levels beyond either any proper police investigations and
conclusions of anything at issue or even beyond an actual arrest (like my arrest of
one count of Second Degree Breach of Peace)?
QUESTION #37:
Does Judge Stefan R. Underhill’s Decision and Second Circuit Court of Appeals
Judge Debra Ann Livingston’s Decision make the obvious growing problems with
the current hypocritical persecutory Zeitgeist of actual women (not mv easel feeling
the freedom to deploy the media against a man better or worse, freedoms to deploy
media devoid of police investigations let alone contradicting past police
investigations?
QUESTION #38:
If a media company are to choose different words (let alone laws) than the Arrest
Warrant in question should they not be obligated to have actual quotes from a
police interview deploying these words stalking and/or harassing?
QUESTION #39:
Is a past police Incident Report devoid of any Probable Cause for any type of arrest
that describes/labels/codifies the Incident Report as a ^suspicious person” any kind
of proper evidence of past stalking?
QUESTION #40:
Should a media organization when choosing their own words to describe an arrest
at the very least have a complainant quoted in reference to any narrative they are
attempting to interpret like Section 11 of the Arrest Warrant at issue?
ISSUE/QUESTION #41:
HOW ABOUT THIS LAST QUESTION:
Fact: Internet search/Google “James Lawrence” and/or “James Lawrence Westport”
and my created website recording every aspect of the fiasco is a top result along
with Heart’s/Westport News libel who picked up on Altice/News 12 before

vii
Altice/News 12 took their coverage down. SO ...since I record all happenings around
the false arrests and resulting civil suits at top search result for the fiasco
www.WestportJamesLawrenceNOTGuilty.com What happens if someone decides to do a similar “stalking” story NOW
after reading the Officer’s Sworn Deposition of Feb. 2021 at top search
result wwwWestport JamesLawrenceNOTGuilty.com
where the Arrest Warrant writing/arresting officer says under oath he
never thought of using the terms stalk and/or harass ....
WHAT SHOULD HAPPEN TO ANYONE WHO NOW CHOOSES TO
PORTRAY ME AS A “STALKER OR HARASSER”?
ISSUE/QUESTION #42:
WHO IS THE AUTHORITY OF THOSE WHO PICK UP ON THIS SELF-CHOSEN
NARRATIVE - Alice/News 12 and/or Hearst/Westport News, Police, or Second
Circuit Court of Appeal civil court????

1

LIST OF PARTIES
[ X ] All parties appear in the caption of the case on the cover page.

1

2

TABLE OF CONTENTS
- Cover Page with List of Parties
- Questions for Review
- Table of Authorities - Citations of Official and Unofficial Reports of Opinions and Orders
- Statement on the Basis of Jurisdiction
- Statement of the Case
- Reasons for Granting the Writ

Pages i-vi
Page 3
Page 4
Page 5
Pages 6-18
Pages 19-22

- Appendix
Page 23
TABLE OF APPENDIXES
- A - Decision of Connecticut District Court Judge Stefan Underhill
- B - Decision of Second Circuit Court of Appeals Judge Debra Ann Livingston
- ADDITIONAL DEEMED SIGNIFICANT:
- C - Current FBI Criminal Background Check
- D - Petition for Rehearing that was Denied by Second Circuit Court of Appeals
E - Deposition of Warrant writing Officer James Sullivan regarding Warrant
A Conclusion

Page 24-25

2

r
3

TABLE OF CITED AUTHORITIES
My research and Summary Decisions clearly show there are NO
PRECEDENTS as to the following issues:
- The issue of media deploying Course of Conduct legal terms like stalking
to a non-stalking arrest.
- The issue of media deploying Course of Conduct legal terms like stalking
to past investigations resulting in no Probable Cause for any type of arrest
cases long closed.
- The issue of courts comparing let alone conflating Second Degree Breach
of Peace to Third Degree Stalking.
- The issue of media and courts referring to long past Incident Reports
devoid of any Probable Cause for any type of arrest as stalking. YES media being allowed to refer to alleged past complaints of “getting into
personal space” KNOWN by the media to NEVER result in any police
action as stalking!!!!
- The issue of courts comparing the dictionary definitions of stalking to
legal definitions of stalking.
- The issue of conflating a history of someone’s personal run-ins with
people/complaints with a crime that he/she was NEVER investigated for,
let alone NEVER arrested for, let alone thus NEVER convicted of.
- The issue of conflating unproven and unprovable past complaints to a
generalized stalking behavior or as the Second Circuit Court of Appeals
write “totality of Lawrence’s conduct” (not even written alleged conduct
for it is unproven and unprovable).

3

4

CITATIONS OF OFFICIAL AND UNOFFICIAL REPORTS OF
OPINIONS AND ORDERS
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix B
the petition and is
[ X ] reported at January 7, 2021
The opinion of the United States district court appears at Appendix A
the petition and is
[ X ] reported at January 9, 2020

4

5

STATEMNT OF THE BASIS OF JURISDICTION
The date on which the United States Court of Appeals decided my case was
JANUARY 7. 2021.

[ X ] A timely petition for.rehearing was denied by the United States Court of
Appeals on the following date: MARCH 10. 2021.
and a copy of the order denying rehearing appears at Appendix D

5

6

STATEMENT OF THE CASE:
I James Lawrence Pro Se sued Altice USA/News 12 Connecticut in December of
2018 for slander and libel. The case survived the Motion to Dismiss because
Connecticut District Judge Stefan Underhill found that Altice/News 12’s use of the
word stalking was “unfair” when reporting on my ONE count of Second Degree
Breach of Peace arrest. The case proceeded to a controversial Summary Judgement
in January 2020. Among the very alarming Opinions from the Connecticut
District Judge Stefan Underhill was the following:
=Judge Underhill: "The headlines (Police: Westport Man Chargedfor Stalking Several
Women) are not defamatory because the average person reading the (News 12) Articles would
not have been affected differently if the headlines read, for instance. "Police: Westnort man
charged with breach ofpeace for following woman. Thus, the headlines are substantially
true.” ECF 66 Page 20
I and others find this opinion to be contrary to everyday people’s common sense.
SUMMARY ORDER QUOTE - Connecticut Judge Stefan Underhill
Case 3:18-cv-1927 (SRU) Appendix A, 01/09/2020 Page 20 of 23.
The same goes for Articles 1 and 2. Their headlines read: “Police: Westport man charged
with stalking women.” That is misleading if not outright false. But the remainder of the
Articles, again, mitigates the problem. Both Articles explain that Lawrence was actually
“charged [] with breach of peace for an incident back in November.” In addition, both Articles
explain that the arrest warrant mentions 10 similar incidents; Article 1 mentions the Parking Lot
Complainant and Article 2 mentions the Stop & Shop Complainant; both mention Lawrence’s
similar charges in California and his protective order; and Article 2 includes the “preying on
women” quote. The headlines are not defamatory because the average person reading the
Articles would not have been affected differently if the headlines read, for instance, “Police:
Westport man charged with breach of peace for following woman.” Thus, the headlines are
substantially true.
An Appeal to Second Circuit Court of Appeals was met with avoiding
arguments, stonewalling evidence, and misrepresentations of the case to which a
11th hour Deposition of the arresting officer confirmed that the Second Circuit Court
of Appeals made mistakes in basic interpretations of the arrest/case and actual
Connecticut laws. My attempt for a Rehearing was DENIED.

6

7

THE FOLLOWING IS ONE WRITTEN ARTICLE FROM MULTIPLE
ALTICE/NEWS 12 BROADCASTS TRANSMITTED TO THE PUBLIC EVERY
HOUR FOR 2 HORRIFIC DAYS IN MARCH 14-15, 2018 THAT WAS PICKED
UP BY OTHER MEDIA, OTHER MEDIA ARTICLES/BROADCASTS THAT
THEMSELVES HAVE THEIR OWN CONTENT AT ISSUE IN SEPARATE
FEDERAL CASES.

Police: Westport man charged
with stalking women
Posted: Mur 15,2013 6:03 AM EOT
Updated: Mar 1S. 2018 7:31 AM EOT

WESTPORT * Police say a Westport man Is facing charges today for allegedly stalking several
women at local grocery stores.
They say James Lawrence, 52, has a history of following women around local groceries stores
and then out to their cars.
According to police, Lawrence has been involved in 10 different cases and was charged with
breach of peace for an Incident back in November after turning himself in last week. They say
he has faced similar charges In California and has a protection order filed against him.
This Is a guy that you know is walking around the grocery stores preying on women and it's
really frightening to wonder what could possibly happen," says one woman, who did not wont
to be Identified. She says Lawrence followed her to her car in a Stop and Shop parking lot a
few months ago and asked her out.
"I'm not guilty, all I did was approach a girt and that was it,* Lawrence says.
Investigators say the 52-year-old was arraigned Wednesday.

IMAGE FROM ONE OF THE BROADCASTS:

—STALKING yKRtlEST.-^
i

7

6

- This March 15, 2018 article and a series of similar yet far more powerful recorded
broadcasts over a two day span transmitted to the public EVERY HOUR was based
on an arrest (first and only arrest relative to Warrant) for ONE COUNT OF
SECOND DEGREE BREACH OF PEACE, to which the Arrest Warrant claims I (53
year old man) had a history of ONE-TIME COMPLAINTS OF UNPROVEN AND
UNPROVABLE “follow and, stare and set into personal space” at public shared
markets fully wired with cameras DESPITE NO EVIDENCE OF THIS CLAIM
HENCE NO PREVIOUS ARREST FOR ANYTHING EVER AS MY CLEAN
CONNECTICUT RECORD INDICATES.
- This March 15, 2018 article and series of broadcasts was a special report DONE 10
DAYS AFTER THE ARREST after Altice/News 12 reporter Mark Sudol obtained
the Arrest Warrant 10 days after the arrest when news had already reported the
arrest in tune with the Official Police Press Release. YES - A SPECIAL REPORT
WHERE THERE WAS PLENTY OF TIME TO GET INPUT FROM POLICE YET
THERE ARE NO QUOTES FROM POLICE TO HELP INTERPRET THE SEIZED
WARRANT WHILE GOING EXTREMELY BEYOND THE OFFICIAL POLICE
PRESS RELEASE AND DEPOSITON OF ARRESTING OFFICER.
- THIS MARCH 15, 2018 ARTICLE AND SERIES OF BROADCASTS OVER A
TWO-DAY SPAN ACCUSES ME OF STALKING AND “STALKING SEVERAL
WOMEN” despite the warrant not using this term, no arrest for stalking, no
previous arrest for anything, and no complainant named or quoted accusing me of
“stalking”.

- THIS MARCH 15, 2018 ARTICLE AND SERIES OF BROADCASTS OVER A
TWO-DAY SPAN IS SAYING “POLICE: WESTPORT MAN CHARGED WITH
STALKING WOMEN” YET HAS NO EVIDENCE OF ANY STALKING IN THE
FORM OF ANY KIND OF PRIOR ARREST LET ALONE STALKING, NO QUOTE
FROM ANY WOMAN CLAIMING STALKING OR HARASSMENT, AND NO
QUOTE FROM POLICE USING THE WORDING/TERMINOLGY STALKING OR
HARASSMENT.

8

9

THE FOLLOWING IS THE MARCH 5. 2018 OFFICIAL POLICE
PRESS RELEASE FOR THE MARCH 5. 2018 FIRST EVER AND
ONLY ARREST FOR ONE COUNT OF SECOND DEGREE
BREACH OF PEACE:

Westport Custodial Arrest Synopsis
03/02/2018 to 03/05/2018
CASE:
ARREST DATE:
ARRESTED:
CHARGE:
BOND:

2017-022937
03/05/2018
James Lawrence AGE: 52 RESIDENCE: Westport, CT
Breach of Peace
$5,000

^On 1.1/05/2017, officers were dispatched to a local grocery store on a report of /suspicious
v person. /The victim reported she was followed around the store by an unknown male who
therT| followed her out to_her car andsto^ by thejdoor ot tier vehicle. The male was later
identified as-James'I^\v^ence,“52r(^ \VesTport; CT. AnarresHvarcant application was
submitted for approval and granted by a judge. On 03/05/2018, Lawrence turned himself on
the active arrest warrant. He was charged with 53a-181 Breach of Peace and released after
posiing $5,000 court set bond. Lawrence is scheduled to appear in Norwalk Court on
3/14/18.

I was arrested March 5, 2018 for a ONE COUNT OF SECOND DEGREE BREACH
OF PEACE that allegedly happened on November 5, 2017. Yes - 5 months earlier. I
was called out of the blue by the Westport CT. Police Department and asked to turn
myself in. This arrest had no Sworn Written Statement (as indicated in the Arrest
Warrant) from the woman of November 5, 2017, and no evidence of anything
criminal like a single market video cam recording.
I was offered on my first court date to pay a non-criminal Infraction of $90 but
refused this deal because of the media slander and libel. After waiting 2 YEARS for
a trial that never was going to happen, I chose in February 2020 to pay the $90 non­
criminal Infraction for Creating a Public Disturbance so to end the madness of
traveling back and forth from my new home - RELOCATING BECAUSE OF THE
SLANDER AND LIBEL. MY CLEAN CONNECTICUT RECORD REMAINS TO
THIS DAY. The Altice/News 12 accusations and now because of Altice/News 12 accusations from other media of STALKING OR HARASSING WOMEN at local
public stores is alleged, unproven, and unprovable. These incidents at a public
market are in Westport Ct. and only Westport CT.

9

10

THE FOLLOWING ASPECTS OF THE ARREST WARRANT IS THE
ISSUE AT HAND. THE ALTICE/NEWS 12 ARTICLES AND
BROADCASTS (AND MEDIA WHO PICKED UP ON LIBEL) WERE
BASED ON THE FOLLOWING ARREST WARRANT NARRATIVE.
SECTION 11-12 OF ARREST WARRANT:
11.♦ That in checking this departments case historv^ith Lawrence, I learned that there were,10. r
sejncidentslogged from 2002 tiM.present. |n_alfpf_thesej:omplaints Lawrence was seen 'X/e.j;
L
th e.cp m pi a i na nts a rou n da sto re or.coffeeshop an d th en joI loyrnTg^i'em out t&their ,,
carsiwhere he would either stare aMhem .or get right .into^heirpecsonaLspace. In most of these ' ’ L
cases, Lawrence was told that his actions scarethfiecomplainants to the point of them calling
the police. He has even stated himself that he needed to rethink his approach with woman. That
I also learned from these reports that there were a lot of other incidents with Lawrence that
/

(This is page 2 of e 3 page Affidavit)
Date

Signed (Affiant)

IS

<)
suesen

l

Jurat

ReviewedVPro

Ob*'fr

ana sworn to before me on (Dale)

ff

2S/7
Date

Signed (Ji

f

>r Court Notary Public)

'g&Jpe^7™

Oslfi

^

Geographical
Area number

20

Q/QZfi

7

A

ARREST WARRANT APPLICATION
JQ<CR-e4a Rev. 3-11
C.G.S. § S*-2a
Pr. Bk. Sec. 36-1,36-2.36-3

STATE OF CONNECTICUT
SUPERIOR COURT
www.jud.ct.gov

Name (teat first Middle tnitiai)

Residence (Town) of accused

Court to be held at (Town)

LAWRENCE, JAMES

WESTPORT

NORWALK

Affidavit - Continued
were not reported to the police.
12. That on December 12, 2017 a Criminal History was performed for James Lawrence, dob
12/15/1965. It was learned thathedoes not havea Connecticut!History but he did have an
Arrest ancfReeing/Eluding Police. In California he was charged with Petty Theft, Theft of
Personal Property, Stalking, Inflicting Corporal Injury to Spouse and Battery of Spouse.

(Emphasis on “Arrest Record” and not “Conviction Record” for there was no previous convictions for
the 1995 California Stalking charge, 2013 Injury to Spouse, or 1987 Florida Eluding Police charge as
shown in Exhibit of FBI Criminal Background Check)
FACT: The Altice/News 12 Connecticut reporter Mark Sudol by seizing and reading
this warrant KNEW I had NO Criminal Record YET STILL CHOSE TO ACCUSE
ME OF STALKING WOMEN IN THE PAST DESPITE POLICE THEMSELVES
NEVER SAYING THIS. This is very extreme and damaging interpretations of the
warrant to say the least. Police carefully chose the long past complaint wording
“follow and stare or get into personal space” for the alleged but FULLY KNOWN

10

11

UNPROVEN AND UNPROVABLE ONE-TIME PAST ACTS resulted in NOTHING
but warnings. Police chose this wording so to avoid stalking and/or harassment
terminology (Course of Conduct behavior) given Stalking and Harassment are
actual multi-level Course of Conduct statutes.
FACT: A DEPOSITON OF THE WARRANT WRITING OFFICER CONFRIMS
THAT HE CAREFULLY CHOSE HIS WORDING AND NEVER THOUGHT OF
USING THE STALKING OR HARASSMENT WORDS (COURSE OF CONDUCT
CRIMES) ALTICE/NEWS 12 DEPLOYED AGAINST ME.
DEPOSITION OF WESTPORT POLICE ARRESTING OFFICER TAMES SULLIVAN:
17

18
19
20
21

All right.
going to move on.

How about this?

|

Okay.

We're

accur

jOYIicert tguTTivah^ fEHatj fi/oul jconsciously javoicteBi ju^ngj
jworasl Q 5Tfice? gou)

jnoU gse] EK§

CISESJ E3

{"harass "] fin] (the1 jwarrah~t71 jthlTtl ]ybul jconscidusTy, jjavoictecli

22

are! actua

*i

rimes!

23

{course; (of| fcoh<3uc‘t‘] jbehaviorTI las] jyou~|,ve] fj'us'tf! described.

24

Iw

>wn

it
•i

MR. YUHAN:

25

Objection to form.

Page 34
1

MR. DRISCOLL:

2

Objection.

If you

understand, you can answer.

3

A.

I didn't actively avoid using those terms, if

4

I understand you correctly.

5

them.

6

idn»

I didn't actively avoid

I didn't consciously avoid them.

OTTevI FuTsTI

omi

YES - THE ARRESTING OFFICER HIMSELF SAYING HE
NEVER THOUGHT OF USING THE TERM STALK OR EVEN
HARASS.

11

12

THERE IS THE ISSUE OF STALKING AND HARASSMENT STATUTE
DEFINITIONS STATE BY STATE AND THE NEED TO HAVE A PROPER
AGREED UPON DEFINITION NOT ONLY IN TUNE WITH LAW BUT ALSO
WITHIN EVERYDAY LANGUAGE APPLIED TO VARIOUS ARRESTS OR
INVESTIGATIONS. Stalking laws came into being around 1990, and previous
Course of Conduct Harassment Laws (that were of the pre-1990 time addressing
stalking) were transferred to electronic media given the rise of the Internet. Thus
stalking and harassment are Course of Conduct laws and behaviors - Course of
Conduct - 2 or more unwanted acts toward one individual after a warning, for
example like a Restraining Order that shows intent.
The way Websters Dictionary defines STALKING AND HARASSING shows
that STALKING is a form of HARASSMENT and thus HARASSMENT is a
Course of Conduct behavior also toward ONE PERSON. But what type of
Course of Conduct behavior? I believe HARASSMENT can be commonly
viewed as a shorter-term Course of Conduct behavior (perhaps within a
10-15 minute period that involve well documented warnings in the face of
attacks and not unintended “getting into personal space” (Arrest Warrant)
while STALKING is obviously more of a Course of Conduct behavior
involving multiple time periods. NONE OF THIS IS EVIDENT IN SECTION
11 OF THE ARREST WARRANT.

12

13

GAMES

MerriamWebster

THESAURUS

WORD OF THE DAY

BLOG

SHOP

stalk

SINCE 1828

'A

r

Thesaurus

Stalk verb
stalked; stalking; stalks

Definition of stalk (Entry 2 of 3)
intransitive verb
1

: to pursue quarry or prey stealthily

2

: to walk stiffly or haughtily

transitive verb
1

: to pursue by stalking

2

: to go through (an area) in search of prey or quarry
// stalk the woods for deer

3

: to pursue obsessively and to the point of harassment

THE ARREST WARRANT IN QUESTION SHOWED NO VERITABLE
STEALTH LET ALONE HUNTING/KILLING-LIKE BEHAVIOR FOR I WAS
ATTEMPTING TO SAY HELLO AND BE SEEN - [conspicuous.
GAMES

Merriam-y
^Webster!

SINCE 1828

stealth

THESAURUS

WORD OF THE DAY

BLOG

SHOP

stealth
Dictionar

Thesaurus

noun

© Save Word
\ 'stelth Q) \

Definition of stealth (Entry 1 of 2)
1

: a cautious, unobtrusive, and secretive way of moving or proceeding intended to
avoid detection

13

14

VERITABLE “follow and get into personal space” WOULD BE
OBSTRUSIVE. BUT IF THERE WAS REPEATED following without
attempts to say hello and/or warnings that would entail stealth and
stalking.
Common sense.
KEEP IN MIND THESE ARE ALLEGED ONE-TIME ACTS OF WHAT
POLICE REPORTS CHARACTERIZE AS A gatfctat«trttfca9suMe«ii AT A
PUBLIC FACILITY WHO WAS NEVER WARNED, HAD CONVERSATIONS
WITH, OR HAD SOMETHING LIKE A RESTRAINING ORDER, POLICE
REPORTS RESULTING IN NO PROBABLE CAUSE FOR ANY TYPE OF
ARREST.
GAMES

^■[MerriamA

SINCE 1828

i

THESAURUS

|

WORD OF THE OAY

0

8LOG

I

SHOP

harassment
Dictionar

harass

j

Thesaurus

verb

Save Word

harass | \ ha-'ras©;'her-es,'ha-res© \
harassed; harassing; harasses

Definition of harass
transitive verb
1

a

: EXHAUST. FATIGUE
//1 have been harassed with the toil of verse
— William Wordsworth

b

(1) : to annoy persistently
// was harassing his younger brother
(2) : to create an unpleasant or hostile situation for especially by uninvited
and unwelcome verbal or physical conduct
// was being harassed by her classmates
// claims that the police were unfairly harassing him

2

: to worry and impede by repeated raids

EMPHASIS ON EXHAUST. PERSISTENCE. REPEATED ....
CONNOTATIONS OF MULTIPLE APPROACHES TOWARD AN
INDIVIDUAL WITH WARNINGS AND NOT A SUBJECTIVE

14

15

INTERPRETATION OF AN ALLEGED LUMP OF UNPROVEN SINGLE
ACTS TOWARD PEOPLE DEVOID OF NAMES, WITNESSES, QUOTES ANY EVIDENCE, WHILE AT A PUBLIC SPACE/MARKET OVER 2
DECADES AKA SECOND CIRCUIT COURT OF APPEALS* “totality of
Lawrence’s conduct- alleged unproven and improvable conduct.
Once again - common sense - everyday people know this.
THIS CASE BELONGS IN FRONT OF A JURY TO HEAR THE DAMAGES.
Veritable Harassment is repeated, persistent, over time (short or long),
systematic, involving courses of conduct - 2 or more acts that involve
VIOALTED warnings toward an individual (WITH KNOWN ACCUSERS)
NOT an unnamed list of people or alleged “totality” of people devoid of
names and quotes detailing harassment stories.
FACT: A stalking law/crime/offense has more severe connotations than a
harassment law/crime/offense because the connotations of stalking
include a prolonged period of time involving more premeditation. Yet
interestingly, the dictionary term of harass is more loaded and severe than
the dictionary term of stalk.
FACT: ONE CAN STALK SOMEONE WITHOUT THEM KNOWING BUT YOU
CANNOT HARASS SOMEONE WITHOUT THEM KNOWING THEY ARE BEING
HARASSED. Meaning - particular descriptions - quotes from named people are
essential in any “totality”.
ONCE AGAIN something to think about:
FACT: A stalking law/crime/offense has more severe connotations than a
harassment law/crime/offense in the “mind of the average viewer” because
of the connotations of a more prolonged period of time with more
premeditation. Yet interestingly, the dictionary term of harass is more
loaded and severe than the dictionary term of stalk. Stalking is also a less
common behavior and carries a heavier stigma than harassment because
there are various types of harassment accusations happening every day.

NONE OF MY PAST HAS ANYTHING TO DO WITH VARIOUS TYPES OF
HARASSMENT LIKE SEX HARASSMENT, WORKPLACE HARASSMENT,
VERBAL HARASSMENT, ETC...

15

16

STATEMENT OF THE CASE CONCLUSION
On March 5, 2018,1 Pro Se James Lawrence was called by Officer James Sullivan of
the Westport Connecticut Police Department to turn myself in for an alleged (now
never proved) One Count of Second Degree Breach of Peace from an alleged
November 5, 2017 incident - yes 5 months earlier. The alleged (never proven) One
Count of Second Degree Breach of Peace behavior was written by the investigating
and arresting officer to be allegedly a one-time act of “follow and stare or get into
personal space” at a local public grocery market. As the warrant shows there was no
words at all between myself and the mystery woman who has not made herself
known or provided a Sworn Written Statement or pressed for any charge. The call
to police on November 5, 2017 was from the woman’s boyfriend about me
approaching the woman’s car to ask her a question. This woman became startled
and drove away before any words were spoken as submitted Dispatch Tapes Exhibit
proves.
On March 5, 2018 I came to the police station as directed and turned myself in and
paid $500 of a $5,000 bond. On March 11, 2018 initial news reported on the arrest
in tune with the Official Police Press Release - “Man arrested for allegedly
following a woman around a market”. However, 10 days later on March 14,
2018, the day of my arraignment, Defendant Altice USA/News 12 Connecticut and
their reporter Mark Sudol wanted to take the matters into a new extremity based
on his seizure of the Arrest Warrant. It is this Arrest Warrant narrative that is
the core of the issues of this case.
Defendant Altice USA/News 12 Connecticut interpreted the Arrest Warrant for One
Count of Second Degree Breach of Peace as “Arrested for Stalking Several Women”.
On March 14, 2018, Altice USA/News 12 crafted stories that ran every hour for 2
days about me being “Arrested for Stalking Several Women”. A call from my lawyer
on the second day and Altice/News 12 ceased its coverage of me and attempted to
cleanse the internet of their material removing all coverage from their website.
Though this remedial act was appreciated, the extreme narrative had gotten out
into the world at large and other news crafted similar news stories because of the
actions of Altice/News 12 reporter Mark Sudol depicting me as a stalker.
Yes - the need for a proper Decision is in order because other media are
picking up on the unproven and unprovable narrative of me “stalking or harassing
women” in the past despite no previous arrest and despite the arresting officer
himself never using either Course of Conduct terms and laws Stalking and
Harassment. I now have a federal case James Lawrence v. Hearst Communications
that addresses how Hearst/Westport News ran with a somewhat similar type of
story as James Lawrence v. Altice USA but Hearst/Westport News has refused to
take their material down for 3+ years. Hearst and as of now the Connecticut
District Court is relying on the outrageous and evasive Second Circuit Court

16

17

of Appeals Decision of James Lawrence v. Altice which entertains no necessary
responsibility by Altice for causing utter havoc and perpetual damages. Second
Circuit Court of Appeal Judge Debra Ann Livingston continues Connecticut Judge
Stefan Underhill’s gross conflating Course of Conduct statute definitions of
stalking let alone simplistic and under-developed dictionary definitions of stalking
with the warrant’s wording of the Second Degree Breach of Peace arrest - “follow
and get into personal space”, gross conflations that continues to threaten my life
into the future devoid of any proper evidence. I am a man with a clean record
regarding the material at hand (as the warrant shows - never arrested in
Connecticut before and never arrested in regard to the material written about in the
warrant — Westport Ct. incidents of never proven and unprovable “follow and get
into personal space” at a market or cafe.) and yet this Altice Decision from the
Second Circuit Court of Appeals Judge Debra Ann Livingston will forever paint me
as a stalker and harasser.
The Arrest Warrant mentions past long closed “cases” or better termed “calls of
concern” from past women to the police that resulted in thorough investigations
that never resulted in any kind of arrest - only mere warnings for they were one­
time alleged acts of a
-as the Police Incident Reports actual
wording show and not stalking or harassing. YES - the only result was police
Incident Reports showing a |
that needed to be warned. These
long past one-time warnings were respected and I never saw or attempted to speak
to any of these women again. In the Arrest Warrant for the March 5, 2018 arrest for
One Count of Second Degree Breach of Peace the police NEVER deploy the words
stalk or harass in regards to anything ever. The police use the words “follow and
stare or get into personal space” to describe the unproven and unprovable behavior
for the arrest. I argue that the police deployed this terminology so to avoid using the
more extreme Course of Conduct behavior of stalk or harass. Deposition of the
Warrant writing officer confirms my belief forn he said he never thought of using
the terms stalk or harass. I argue my arrest had to do an alleged (never proven)
one-time never prewarned act of Second Degree Breach of Peace at a grocery store
of unintended “getting into personal space”. There was no Course of Conduct ever
with any of the past complaints.
This behavior written about in the arrest warrant is accurately described as
unproven and unprovable not only now due to the fact that Due Processes of Law
had happened resulting on NO arrest but also at the time of the seizure of the
Arrest Warrant because the Altice/News 12 reporter read in this very Arrest
Warrant that I had no criminal history. Meaning - the reporter knew any
allusions to past “cases” were long closed resulting in no Probable Cause
for any kind of arrest and his opportunistic decision to deploy extreme
characterizations like stalking would inevitably be unprovable and thus
libel and slander. Since there were prior police investigations, this makes the
characterizations of stalking slander and libel. If a reporter was reporting on a

17

18

woman’s feelings at the time of the accusation then that would entail less evidence
and room for speculation because there were no investigations. But there are no
quotes from any woman from the arrest warrant.
This is the time we are in - inverted reasonings via conflated interpretations and
narratives. BUT some words are more dangerous than others much like some
crimes are more dangerous than others yet Second Circuit Court of Appeal Judge
Debra Ann Livingston refuses to bring the everyday issues in front of a jury of
everyday people. We are in an extreme Zeitgeist unlike any other time - a perfect
storm of aggressive women accusing men of harassment or stalking (not my case)
coupled with the effects of the Internet - a perfect storm to destroy a person thus
sticking to actual wording of arrest warrants is essential. Allowing any man to be
painted as a stalker or harasser without any proper evidence - proper evidence in
the form of actual police arrests for stalking or harassment, or police using these
stalking or harassing terms in a warrant, or an actual named women deploying the
stalk or harass terminology is damaging in ways that deserve to be heard from
concerned people so to end the persecution - the current Zeitgeist. When something
like this happens to you your life essentially ends and you are in need of a new
name.
I filed my Complaint against Altice USA/News 12 in December of 2018 and received
a very controversial, short-sighted, unempathetic Decision in January 2020 from
Connecticut Judge Stefan Underhill. I appealed to the Second Circuit Court of
Appeal which evaded most of the arguments put forth to them not even affording
me an Oral Argument, and received a Decision that only endangers my life even
more despite having a clean record regarding the accusations hurled against me. I
believe a Pro Se man taking this prodigious and socially redeeming task should be
respected and not disrespected for being Pro Se. I have perspectives (hence my
numerous Exhibits) from a trained linguist that no lawyer could ever present as
effectively. What does it take for common sense to reign and when does the madness
against me end with those responsible properly punished for causing other media to
persecute me? When does the madness end and those responsible for what Judge
Stefan Underhill admitted was “unfair” and “outright false” reporting properly
being a legal symbol to halt any further persecution and inevitable lawsuits.

18

19

REASONS FOR GRANTING THE CASE
We read every day about new harassment accusations. Harassment is a very broad
term that people throw around in many types of situations. Stalking is more easily
defined. Have we ever heard of someone being reported on as stalking or harassing
devoid of a woman using the terms stalk or harass? Have we heard of someone
accused by media of stalking and harassing devoid of someone (woman) actually
being quoted using this stalking or harassing terminology? Have we heard of
someone accused of stalking from an arrest that never involved stalking or have
police themselves deploying this stalking terminology?
This case is ideal to set proper parameters when reporting on stalking or
harassment because my case has absolutely nothing to do with the current
MeToo Zeitgeist - sex harassment. Reporting on stalking or harassing devoid of
police arrests for such behavior best have proper news story descriptions of the who
what where when why how and how long when flirting with the VERY LOADED
general terms stalk or harass, for merely using these unproven and unprovable
general terms of stalk or harass devoid of actual stalking or harassing arrests allow
the average reader to imagine whatever they believe the general term stalk or
harass subjectively conjures up.
YES - this case is very very very significant and important for the current
Zeitgeist. How many more men’s lives are we going to watch be destroyed devoid of
any proper evidence? How much more Guilt by Accusation are we as mature culture
going to allow the media to practice.? When are we going to address the yearly rises
of the new term called virtue signaling? When are we going to address the many
also increasing obvious cases of victim playing that are being exploited by the
opportunistic media? When are we as an educated culture going to address the
increase in politically motivated inverted reasoning replete with unscientific
conflated narratives? When are we as fair and balanced culture going to address the
effects of Cancel Culture and the nefarious tactics to online shame to get people
fired from their jobs and rendered unemployable?
I believe Judge Brett Kavanaugh should review this case because he is a
victim of extreme unproven and unprovable accusations involving a woman that go
back years - decades and can relate to the Damages. The alleged incidents of me
Pro Se James Lawrence “getting into personal space” at a public cafe or market
written about in Section 11 of the warrant are also referring to decades old
complaints/calls of concern, calls of concern to the police that were FULLY
INVESTIGATED and resulted in warnings/no arrests of any kind and with no
complainant pressing any kind of charge.
AND GIVEN THE FACT THAT OTHER MEDIA PICKED UP ON THIS
EXTREME ALTICE/NEWS 12 CONNECTICUT “stalking several women99

19

20

INTERPRETATION OF THE WARRANT, how a proper trial or temperate
settlement to deter further slanderous and libelous (unproven and unprovable)
cluster bomb persecution did hot happen is a huge injustice. THIS CASE IS VERY
IMPORTANT BECAUSE ANOTHER CASE - JAMES LAWRENCE V. HEARST
COMMUNICATIONS PARROTED THE DECISION FROM THE SECOND
CIRCUIT COURT OF APPEAL, where this time Hearst used the Course of Conduct
wording HARASS as opposed to STALK, thereby showing that a proper Decision
for someone never arrested for let alone convicted of anything let alone NEVER
CHAREGD OR ACCUSED BY POLICE (backed up by Deposition of warrant
writing officer) OR ACCUSED BY A COMPLAINANT (any Incident Report) of
STALKING or HARASSING be established. THE ONLY ONES ACCUSING ME OF
STALKING OR HARASSING IS THE MEDIA.
[Note: The 2019 Email Harassment arrest (only arrest for a Harassment Course of Conduct crime)
happened after the 2018 media coverage and issues at hand - a one-time arrest a year after the
News 12/Altice coverage, and was deemed irrelevant by Judge Underhill because of it happening
after the slander and libel and most certainly because of the slander and libel for I had a target put
upon me. There is no conviction of this Email harassment arrest and never will be given the facts of
the case — Felony Tampering with Evidence that should be resolved by Sept. 2021 now that courts
are running again.j

20

;

V

K

?

21

ANOTHER TOP REASON FOR GRANTING THE CASE IS BECAUSE THE SECOND
CIRCUIT COURT OF APPEAL IGNORED BASIC FACTS AND BASED THEIR
REASONING ON UTTER FICTION.
FOR EXAMPLE:
SECOND CIRCUIT COURT OF APPEALS:
APPEAL SUMMARY ORDER QUOTE - Judge Debra Ann Livingston
Case 20-393, Appendix A, 01/07/2021, Page 5.
i

Compare Conn. Gen. Stat. § 53a-181e(a) (third-degree stalking) (“A person is guilty of stalking
in the third degree when such person recklessly causes another person to reasonably (1) fear for
his or her physical safety, or (2) suffer emotional distress... by wilfully and repeatedly following
or lying in wait for such other person.”), with id. § 53a-l 81 (a) (second-degree breach of peace)
(“A person is guilty of breach of peace in the second degree when, with intent to cause
inconvenience, annoyance or alarm, or recklessly creating a risk thereof, such person: Engages in
.. . threatening behavior in a public place.”).
WHY IS THE COURT NOT QUOTING THE ENTIRE SECOND DEGREE BREACH OF
PEACE STATUTE IN TUNE WITH THE OFFICER’S WORDING AND OBVIOUSLY
WHAT HE ARRESTED ME FOR WHICH IS NOW VERIFIED FROM HIS DEPOSITION?
Deposition of Arresting Officer James Sullivan:
21

Q.

Okay.

There are 'six parts of the

22

second-degree breach of peace statute, Officer.

Which

23

part of this one count of second-degree breach of peace

24

did you arrest me for?

25

3, 4, 5, or 6?

Did it fit under section 1, 2,

Page 26
1
2

MR. YUHAN:
A.

Objection to form.

It was being referenced to part 6.

FACT: I was arrested for #6 “creates a physically offensive condition” and NOT #1 "...
threatening behavior in a public place”, nor #2y nor #3y nor #4y nor #5.

21

22

2005 Connecticut Code - Sec. 53a-181. Breach of the
peace in the second degree: Class B misdemeanor.
Sec. 53a-181. Breach of the peace in the second degree: Class B misdemeanor, (a) A person is guilty of breach of the
peace in the second degree when, with intent to cause inconvenience, annoyance or alarm, or recklessly creating a risk
thereof, such person: (1) Engages in fighting or in violent, tumultuous or threatening behavior in a public place; or (2)
assaults or strikes another; or (3) threatens to commit any crime against another person or such other person's property;
or (4) publicly exhibits, distributes, posts up or advertises any offensive, indecent or abusive matter concerning any
person; or (5) in a public place, uses abusive or obscene language or makes an obscene gesture; or'(6) creates a public
and hazardous or physically offensive condition by any act which such person is not licensed or privileged to do. For
purposes of this section, "public place” means any area that is used or held out for use by the public whether owned or
operated by public or private interests.

The Officer’s entire Deposition verifies there NEVER was any threatening from anything
in mv oast as well. So how can the Second Circuit Court of Appeal now conflate Third Degree
Stalking with Second Degree Breach of Peace? Where is the word stalk in any of this statute
let alone part #6?
OUTRAGEOUS - AN ATTEMPT TO CLEAR UP THIS CONFUSION WITH THE SECOND
CIRCUIT COURT OF APPEALS RESULTED IN NO ADMISSION OR REFERENCE TO
THE MIXUP AND NO GRANTING OF PETITION FOR REHEARING. IT IS TIME THE U.S.
SUPREME COURT TO FINISH THE JOB.

22

23

TABLE OF APPENDIXES
A - Decision of Connecticut District Court Judge Stefan Underhill
B - Decision of Second Circuit Court of Appeals Judge Debra Ann
Livingston
ADDITIONAL DEEMED SIGNIFICANT:
C - Current FBI Criminal Background Check
D - Petition for Rehearing that was Denied by Second Circuit Court of
Appeals
E - Deposition of Warrant writing Officer James Sullivan regarding
Warrant at issue within Petition for Rehearing as Appeal Exhibit JJJ.
RECOMMENDED REVIEW OF PREVIOUS ECF FILINGS:
- Submitted Brief and Reply Brief Table of Contents
- List of Submitted Exhibits
- Social Scientific Presentation of 10 Major English Dictionaries
- Comparisons to Dictionaries from Foreign Languages/Cultures
- Legal Dictionaries
- Legal Statutes
- Encyclopedias
- Anti-Stalking Organizations Literature
- Psychology Dictionaries
- Comparisons to Various Actual Stalking Arrests
- Common Sense

23

24

CONCLUSION
It is about time MENS RIGHTS are given a proper forum with detailed wellanalyzed and debated issues. ANYONE WHO THINKS WHAT HAS HAPPENED
TO ME WILL JUST FADE AWAY IN TIME IS NOT QUALIFIED TO BE A
JUDGE. MY DAMAGES ARE REAL AND ONGOING NO MATTER WHERE I AM.
I AM FOREVER PROFILED IN A NANOSECOND. Other cases with traumatic
Damages like for example - having a gun pointed at you one time, can be cured
through counseling and therapy, but I HAVE A GUN CONSTANTLY BEING
POINTED AT ME BEING GOOGLED AT ANY TIME BY ANYONE - potential
friends, employers, clubs, hotels and hostels, friends of friends, family of friends,
ETC....
IT IS TIME FOR A PROPER CASE ABOUT THE WICKED RESULTS OF THIS
WORST EVER GENDER WAR ZEITGEIST TO SHOW WHAT REALLY HAPPENS
IN DETAIL WHEN WE ALLOW OVERLY LOOSE FREEDOMS TO ACCUSE AND
PERSECUTE AND CONFLATE FREE OF EVIDENCE (LET ALONE GOING
EXTREMELY BEYOND POLICE ACTIONS AND WORDS).
IT IS TIME FOR A PROPER CASE THAT SHOWS WHAT REALLY HAPPENS IN
DETAIL WHEN WE ALLOW SUBJECTIVE INTERPRETATIONS OF LAW AND
LANGUAGE TO BE REPORTED ONLINE AND NEVER PROPERLY PUNISHED
TO DETER FURTHER UNPROVEN AND UNPROVABLE PERSECUTIONS.
IT IS TIME WE ALLOW A JURY OF EVERYDAY PEOPLE LIVING IN THE
TRENCHES OF THE ZEITGEIST TO HELP FULLY DEFINE WHAT STALKING
MEANS TO “THE MIND OF THE AVERAGE VIEWER" AND NOT JUST A
JUDGE.
IT IS TIME ALL MY EVIDENCE OF HOW ALTICE USA/NEWS 12 DID NOT
“DULL IMPACT WITHIN THEIR REPORTS OF THEIR DEEMED BY DISTRICT
JUDGE UNDERHILL “UNFAIR"AND “OUTRIGHTFALSE" HEADLINES BUT
RATHER ADDED 'IMPACT.
I respectfully ask that my Brief and Exhibits, Reply Brief and ALL EXHIBITS, and
Petition for Rehearing be properly reviewed. I ask this because this most important
court of the country and far-reaching court of the country owe other men from
around the country to know what Pro Se James Lawrence was forced to ingest for 4
years and counting at age 52, 53, 54, 55, etc... at a time in his life he should be
enjoying a family life after a life of staying out of trouble. I ASK THIS CASE BE
ACCEPTED BY THE US SUPREME COURT FOR ALL MEN FROM ALL
DISTRICT COURTS AND NOT JUST NEW YORK notorious for their identity
politics.

24

25

GAMES

SINCE 1828

BROWSE THESAURUS

WORD OF THE DAY

invade someone's space
DICTIONARY

THESAURUS

invade someone’s space
0

WORDS AT PLAY

idiom

Save Word

Definition of invade someone's space
: to place oneself too close to someone
//1 felt uncomfortable with her so close, invading my space.
also : to be in the space where another person is or wants to be
//1 went to study in the library so I wouldn't invade my roommate's space.

The definition NEVER uses the wording - stalk, stealth, prey.
harass.
This Websters entry that does not use the Course of Conduct acts of harass and
stalk is still even more severe than what the Warrant states because this definition
states “invade personal space” while the warrant is more benign showing no
INTENT “get right into personal space”. In addition, no article on “violation of
personal space” uses the terms stalking to cover this behavior.
I argue “POLICE:aka the warrant writing officer chose this dictionary entry
and actively avoided the Course of Conduct terms stalk and harass. The Deposition
of the Arrest Warrant writing officer confirms this fact.

25

